<html>
<title> - NOMINATION OF RUSSELL T. VOUGHT, OF VIRGINIA, TO BE DEPUTY DIRECTOR OF THE OFFICE OF MANAGEMENT AND BUDGET</title>
<body><pre>[Senate Hearing 115-93]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 115-93

NOMINATION OF RUSSELL T. VOUGHT, OF VIRGINIA, TO BE DEPUTY DIRECTOR OF 
                  THE OFFICE OF MANAGEMENT AND BUDGET

=======================================================================

                          HEARING & EXECUTIVE
                            BUSINESS MEETING

                               BEFORE THE

                        COMMITTEE ON THE BUDGET

                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

   June 7, 2017--HEARING ON THE NOMINATION OF RUSSELL T. VOUGHT, OF 
 VIRGINIA, TO BE DEPUTY DIRECTOR OF THE OFFICE OF MANAGEMENT AND BUDGET

June 14, 2017--EXECUTIVE BUSINESS MEETING TO CONSIDER THE NOMINATION OF 
RUSSELL T. VOUGHT, OF VIRGINIA, TO BE DEPUTY DIRECTOR OF THE OFFICE OF 
                         MANAGEMENT AND BUDGET
                         
                         
                         
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                       
                         


             Printed for use of the Senate Budget Committee
                        
                        
                                 

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-919 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2e495e416e4d5b5d5a464b425e004d414300">[email&#160;protected]</a>                        
                        
                        
                        
                        
                     
                        
                        
                        
                        COMMITTEE ON THE BUDGET

                   MICHAEL B. ENZI, Wyoming, Chairman
CHARLES E. GRASSLEY, Iowa            BERNARD SANDERS, Vermont
MIKE CRAPO, Idaho                    PATTY MURRAY, Washington
LINDSEY O. GRAHAM, South Carolina    RON WYDEN, Oregon
PATRICK TOOMEY, Pennsylvania         DEBBIE STABENOW, Michigan
RON JOHNSON, Wisconsin               SHELDON WHITEHOUSE, Rhode Island
BOB CORKER, Tennessee                MARK R. WARNER, Virginia
DAVID A. PERDUE, Georgia             JEFF MERKLEY, Oregon
CORY GARDNER, Colorado               TIM KAINE, Virginia
JOHN KENNEDY, Louisiana              ANGUS S. KING, Jr., Maine
JOHN BOOZMAN, Arkansas               CHRIS VAN HOLLEN, Maryland
LUTHER STRANGE, Alabama              KAMALA D. HARRIS, California
                 Eric Ueland, Republican Staff Director
                Warren Gunnels, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              

                                HEARING

                                                                   Page
June 7, 2017--Hearing on the Nomination of Russell T. Vought, of 
  Virginia, To Be Deputy Director of the Office of Management and 
  Budget.........................................................     1

                OPENING STATEMENTS BY COMMITTEE MEMBERS

Chairman Michael B. Enzi.........................................     1
Ranking Member Bernard Sanders...................................     2

                           WITNESS STATEMENT

Russell T. Vought, of Virginia, Nominee To Be Deputy Director of 
  the Office of Management and Budget............................     7
    Prepared Statement of........................................     9

                   MATERIALS SUBMITTED FOR THE RECORD

Prepared Statement of U.S. Representative Jeb Hensarling of 
  Texas, Submitted by Chairman Michael B. Enzi...................     5
Letter from the Arab American Institute, Bend the Arc Jewish 
  Action, and Muslim Advocates, Submitted by Ranking Member 
  Bernard Sanders................................................    13
Statement of Biographical and Financial Information Requested of 
  Presidential Nominee Russell T. Vought To Be Director of the 
  Office of Management and Budget................................    31
Pre-Hearing Questions from Ranking Member Bernard Sanders with 
  Answers by Russell T. Vought...................................    41
Post-Hearing Questions from Ranking Member Bernard Sanders with 
  Answers by Russell T. Vought...................................    45
Post-Hearing Questions from Budget Committee Members with Answers 
  by Russell T. Vought:
    Senator Bob Corker...........................................    51
    Senator Debbie Stabenow......................................    53
    Senator Mark R. Warner.......................................    56

                       EXECUTIVE BUSINESS MEETING

June 14, 2017--Executive Business Meeting To Consider the 
  Nomination of Russell T. Vought, of Virginia, To Be Deputy 
  Director of the Office of Management and Budget................    67
Committee Votes..................................................    67

                   STATEMENT SUBMITTED FOR THE RECORD

Prepared Statement of Senator Charles E. Grassley................    69

 
                    NOMINATION OF RUSSELL T. VOUGHT,
                   OF VIRGINIA, TO BE DEPUTY DIRECTOR
                 OF THE OFFICE OF MANAGEMENT AND BUDGET

                              ----------                             


                        WEDNESDAY, JUNE 7, 2017

                                       U.S. Senate,
                                   Committee on the Budget,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:31 p.m., in 
room SD-608, Dirksen Senate Office Building, Hon. Michael B. 
Enzi, chairman of the committee, presiding.
    Present: Senators Enzi, Grassley, Gardner, Kennedy, 
Sanders, Stabenow, Merkley, Kaine, Van Hollen, and Harris.
    Staff present: Matthew Giroux, Republican deputy staff 
director; and Warren Gunnels, minority staff director.

         OPENING STATEMENT OF CHAIRMAN MICHAEL B. ENZI

    Chairman Enzi. Good afternoon. I will call this hearing to 
order.
    We are here today to consider the nomination of Mr. Russell 
T. Vought, of Virginia, to be the next Deputy Director of the 
Office of Management and Budget (OMB). I am going to try to 
keep my opening remarks brief.
    President Trump nominated Mr. Vought for this position just 
last month. I think all members on the committee can agree that 
we would like to see a confirmed OMB Deputy Director in place 
as soon as possible. I was delighted to see that the Homeland 
Security and Governmental Affairs Committee convened this 
morning to hold their own confirmation hearing with Mr. Vought.
    Now that all of us have had the opportunity to review the 
President's budget and were able to hear from Director 
Mulvaney, we can see why there is a real need to ensure all the 
leadership positions at OMB are filled.
    Recall that the President's budget is just one step in the 
process of putting America on a better and more sustainable 
path. This Herculean effort will take Congress, the 
administration, and, most importantly, the American people all 
working together if we are going to confront our fiscal 
challenges.
    America faces today a nearly $20 trillion debt, unchecked 
and unfunded mandatory spending, and large regulatory burdens 
on businesses and individuals. I am pleased that the President 
has nominated an experienced hand.
    As I mentioned just recently, we had the privilege of 
hearing from Director Mulvaney speak about the President's 
budget. I am certain that Director Mulvaney is looking forward 
to having Russell T. Vought by his side as OMB now transitions 
to work on implementing the policy proposals contained in the 
President's budget.
    Indeed, producing a budget is just one of the important 
roles OMB serves. For example, OMB works to manage 
governmentwide functions, such as agency rulemaking, 
contracting, grants management, financial management, 
information technology, program assessment, personnel policy, 
and property management, just to name a few. Having a Deputy 
Director in place at OMB will ensure that the administration 
and the Federal Government is serving the American people to 
its utmost capability.
    Today I look forward to hearing from Mr. Vought on why he 
is the best qualified person for this position. Particularly, I 
am eager to know how his past positions of working in public 
policy will translate now to enacting real reforms. I am 
pleased to announce that we had a very productive meeting 
before this hearing weeks ago, and it is encouraging that we 
can continue that conversation today. As with then-nominee 
Mulvaney, I will be interested in learning Mr. Vought's views 
on the role played by the Office of Information and Regulatory 
Affairs, OIRA, and vetting agency regulations. This is a 
particular interest because our committee has been exploring 
the concept of a regulatory budget as one way to quantify the 
burdens Federal regulations have on the American economy.
    Another important area of the committee's work is reforming 
the broken budget process. Unfortunately, we have seen years 
when budgets were not even passed, and if they were, prescribed 
levels of funding were not enforced. I am confident that the 
administration wants to do better, and I am eager to hear how 
Mr. Vought plans to assist in that process.
    Senator Sanders.

          OPENING STATEMENT OF SENATOR BERNARD SANDERS

    Senator Sanders. Thank you very much, Mr. Chairman. Mr. 
Vought, thanks for being with us.
    As I understand it, Mr. Chairman, Mr. Vought has been at 
the OMB as part of the so-called beachhead team since the 
beginning of the Trump administration. Mr. Vought has told us 
in writing that he has ``largely been responsible for advising 
Director Mulvaney on the composition of the fiscal year 2018 
budget proposal and preparing decisions for him to make.''
    Now, I have to say that, in my view, the budget that Mr. 
Vought helped write is perhaps the most destructive and cruel 
budget ever presented by a President in the history of our 
country. This is a budget that would cause devastating economic 
pain to tens of millions of Americans. It would make it harder 
for children to get a decent education, make it harder for our 
working families to get the health care they desperately need, 
make it harder to protect our environment, and make it harder 
for senior citizens to live out their retirement years in 
dignity.
    The Trump budget that Mr. Vought helped write cuts 
nutrition assistance for low-income pregnant women and their 
babies by 15 percent, literally taking food out of the mouths 
of some of the most vulnerable people in this country.
    The Trump budget would eliminate the Low-Income Home Energy 
Assistance Program, something very important to my State 
because we have weather that occasionally gets 10, 20 below 
zero. We have a lot of lower-income seniors and others who 
cannot afford to keep their homes warm in the wintertime.
    The Trump budget would cut affordable housing to some 
250,000 families at a time when millions of working people are 
spending 40, 50, or 60 percent of their limited incomes trying 
to put a roof over their heads.
    The Trump budget that Mr. Vought apparently helped to write 
would slash Head Start by almost $1 billion, throwing nearly 
90,000 low-income children off of the high-quality early 
childhood education they desperately need.
    Now, here is the point about this budget, which really is 
the main thing. It is not just that there are massive cuts to 
health care, to education, to nutrition, to environmental 
protection, to affordable housing--about $2.5 trillion in cuts 
over a 10-year period. But what was very interesting about this 
budget, at the same time they make massive cuts to the programs 
that working families desperately need, they also managed to 
put in there some $3 trillion in tax breaks for the top 1 
percent.
    So Mr. Vought and Mr. Mulvaney and Mr. Trump apparently 
think it makes a lot of sense to go after the needs of working 
families, the elderly, the children, the sick and the poor--the 
most vulnerable people in this country--and then at the same 
time say to billionaire families that they are going to get 
massive tax breaks.
    Now, as all of you know, when Donald Trump campaigned for 
President, he told the American people that he would be a 
different type of Republican. Well, not the case. Tax breaks 
for the rich and cuts in programs for working people are the 
same old Republican ideology that we have heard from for years.
    Further, Mr. Chairman, what President Trump is also doing 
in a way that is unprecedented in modern American history is 
trying to divide this country up. It is one thing for us to 
disagree on issues. But what serious Presidents do, what 
serious leaders of democracies do, is to try to bring people 
together. Maybe the color of your skin is a little bit 
different than mine. Maybe your religion is different than 
mine. Maybe you came from a different country than I did. But 
what leadership in a democratic society is about is bringing 
people together. And yet we have a President who is trying to 
divide us up based on the Nation that we came from, based on 
our religion, based on many other factors.
    Which brings us to Mr. Vought, the nominee of today. On 
January 17, 2016, Mr. Vought wrote an opinion piece for a 
publication called The Resurgent in which he said, and I quote: 
``Muslims do not simply have a deficient theology. They do not 
know God because they have rejected Jesus Christ, His Son, and 
they stand condemned.''
    When Mr. Vought was asked in writing if he considered this 
statement to be Islamophobic, hateful, and offensive, he 
responded, and I quote--this is Mr. Vought: ``No. I respect the 
right of every individual to express their religious beliefs. 
This statement, which is taken out of context, was made in a 
post designed to defend Wheaton College, my alma mater, for its 
decision to insist that one of its professors maintain its 
statement of faith. I specifically wrote it with the intention 
of conveying my viewpoint in a respectful manner that avoided 
inflammatory rhetoric.'' End of quote from Mr. Vought.
    The professor who Mr. Vought is referring to is Larycia 
Alaine Hawkins, who became the first female African American 
tenured professor at Wheaton College in 2013, serving as an 
associate professor of political science. Apparently, the crime 
that Mr. Vought found so objectionable was a 2015 Facebook post 
that Ms. Hawkins wrote, stating, and I quote--this is from Ms. 
Hawkins, the professor of political science: ``I stand in 
religious solidarity with Muslims because they, like me, a 
Christian, are people of the Book. And as Pope Francis stated, 
we worship the same God.''
    Mr. Chairman, in my view, the statement made by Mr. Vought 
is indefensible, it is hateful, it is Islamophobic, and it is 
an insult to over a billion Muslims throughout the world.
    This country since its inception has struggled, sometimes 
with great pain, to overcome discrimination of all forms, 
whether it is racism, sexism, xenophobia, homophobia, and 
Islamophobia. Over the years we have made progress in becoming 
a less discriminatory and more tolerant society, and we must 
not go backward.
    The nomination by President Trump of an individual who has 
expressed such strong Islamophobic language is simply 
unacceptable. In a democratic society, we can all disagree over 
issues, but racism and bigotry cannot be part of any public 
policy. In my view, the nomination of Mr. Vought must be 
rescinded.
    I yield back the balance of my time.
    Chairman Enzi. Thank you, Senator Sanders.
    Before I begin, I would like to ask unanimous consent to 
enter into the record a letter from Congressman Hensarling 
introducing Mr. Vought. Without objection, so ordered.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Enzi. Our witness this afternoon is Mr. Russell T. 
Vought, the President's nominee for Deputy Director of the 
Office of Management and Budget. Mr. Vought has been serving at 
OMB since January in a senior advisory role. Prior to his time 
at OMB, Mr. Vought had an extensive and impressive career on 
Capitol Hill. Starting his time on the Hill as an intern, Mr. 
Vought worked his way up the ranks to become the Policy 
Director of the House Republican Conference. Along the way, Mr. 
Vought also completed his law degree from George Washington 
University. After leaving Capitol Hill, Mr. Vought served as 
vice president for grassroots outreach and policy initiatives 
at the Heritage Action for America.
    We look forward to receiving your testimony, Mr. Vought, 
but first, under the rules of the committee, nominees are 
required to testify under oath, so, Mr. Vought, would you 
please rise with me so I can administer the oath? Do you swear 
that the testimony you will give to the Senate Budget Committee 
will be the truth, the whole truth, and nothing but the truth?
    Mr. Vought. I do.
    Chairman Enzi. If asked to do so and if given reasonable 
notice, will you agree to appear before this committee in the 
future and answer any questions that members of the committee 
might have?
    Mr. Vought. I will.
    Chairman Enzi. Please be seated. We will now have a chance 
to hear from you.

   STATEMENT OF RUSSELL T. VOUGHT, OF VIRGINIA, TO BE DEPUTY 
           DIRECTOR, OFFICE OF MANAGEMENT AND BUDGET

    Mr. Vought. Thank you, Mr. Chairman. I want to thank you, 
the ranking member, and the members of this committee for the 
honor of appearing before this committee.
    I also want to thank and introduce my family who has 
endured this process with me and the long hours that come with 
serving one's country in a public role. My wife, Mary, is here, 
and my daughters Ella and Porter. And I am also thrilled that 
my sisters and many friends could be here in support.
    It is a joy to ``come home'' to the U.S. Senate. I worked 
the first 4 years of my career in this distinguished body, 
mostly for Senator Phil Gramm. I spent hours on the Senate 
floor, in committee, and at my desk, learning how the Senate 
works its will with great deliberation; how an institution 
protects the rights of a minority to be heard, and how 
Statesmen ought to debate their colleagues to move votes and 
shape public opinion. And it was here that I developed a love 
for public policy, seeing how it could be used to help the 
people of this country live freer and better lives.
    It is an honor to be nominated to serve as the Deputy 
Director of the Office of Management and Budget. It is a job 
that comes with great responsibility, and I am humbled that 
President Trump and Director Mulvaney have asked me to serve. I 
know the quality of the men and women who have served 
previously in this particular role, and I want to contribute to 
that long line of distinguished public service.
    My career has readied me for this moment. I spent over 12 
years working in the House and Senate, with a specific emphasis 
in budget policy. I was the Republican Study Committee's Budget 
Director, writing its budget resolution and advising on budget 
policy. I went on to serve as the RSC's Executive Director and 
then the Policy Director of the Republican Conference under 
then-Chairman Mike Pence. All of these roles afforded me an 
opportunity to handle a wide range of policy issues and manage 
policy development processes that ensured a wide variety of 
viewpoints would be heard. That is very much the job of the 
Deputy Director of OMB: to build and further a policy process 
that ensures that the President and his advisors receive the 
best analysis possible so that everyone is heard and the best 
decision is made.
    I also have experience managing a large organization. I 
spent the last 7 years managing many aspects of Heritage Action 
for America, including staff and 17,000 volunteers across the 
country. Volunteers are in fact volunteers. They have their own 
viewpoints and ideas, and you do not get very far working with 
them if you do not treat them as leaders in their own right. 
That experience has prepared me well for managing the men and 
women of OMB, who are career experts in their fields and have 
years of institutional knowledge for this administration to 
draw upon.
    As for the job to be done, it is immense. Our country faces 
a $20 trillion national debt. It will eventually wreck our 
country if not addressed. That burden will fall on my children 
and grandchildren if the current trajectory of spending is not 
dealt with. It will mean a lower standard of living for them 
and less time for the truly important things in life as more 
and more of their salary is consumed by Government. Their 
families and communities will be weaker, and they may be the 
first generation that gets a worse deal than their parents. 
That is not the American way.
    I have spent my entire career caring about taxpayers and 
their families. I have fought to save them money and ensure 
that their tax dollars were spent well. I come from a blue-
collar family. I am the son of an electrician and a public 
school teacher. I know what they went through to balance their 
budget. My parents worked really long hours to put me through 
school. But they also worked long hours to pay for the 
Government in their lives, and I have often wondered what they 
would have been free to build and give without such a high 
burden. My old boss called them the ``wagon pullers in our 
country.'' Others have referred to them as this country's 
``forgotten men and women.'' They have always been my test for 
Federal spending. Did a particular program or spending increase 
help the nameless wagon pullers across our country, working 
hard at their job, trying to provide for their family and 
future, without the luxury of watching C-SPAN at that very 
moment to know whether we were increasing their burden? How 
would they vote? Yea or nay? I believe that as a country we 
have too often failed that simple test, and it is the reason 
that we face a $20 trillion national debt. If the Senate 
confirms me, I am ready to take up that work again.
    Thank you for considering my nomination, and I look forward 
to answering your questions.
    [The prepared statement of Mr. Vought follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Enzi. Thank you for your testimony.
    Does anybody have any questions about the order we will go 
in? I will ask questions first, and then you will get to ask 
questions, and then we will go back and forth, if anybody else 
shows up over here, we will go in order of appearance at the 
sound of the gavel.
    Thank you for your testimony, and particularly thank you 
for bringing your family. That is who we do these things for, 
family. I have some grandkids and I do not want to be 
embarrassed by questions they might have later of things that I 
might not have gotten done.
    Of course, an important part of the committee's work is 
budget process reform. There are a lot of good ideas out there 
on how to reform this process, and one in particular is 
implementing a biennial budget. I am proud to say that my home 
State of Wyoming budgets biennially. Most States do. We do not 
seem to be able to get through the process, so maybe if we did 
it once every 2 years or divided it into two separate 
categories of six budgets and six budgets, we might be able to 
get the job done.
    So what are your thoughts on biennial budgeting for the 
Federal Government? What other budget reforms might you 
suggest?
    Mr. Vought. Thank you, Senator. We very much need to fix 
our budget process, and it is something I have long been 
interested in, working on budget process reforms as a 
congressional staffer.
    Biennial budgeting is definitely an idea that is worthy of 
consideration. I would be very interested in the types of 
reforms that would ensure that our appropriations process is on 
a 2-year cycle.
    I am worried about not having budgets every year because I 
would not want to lose the ability to have reform and oversight 
in those off years. But I think there are ways around that, and 
to use the second year in a 2-year cycle to do a lot of that 
oversight. But it is definitely an idea that is worthy of 
consideration, and if confirmed, I would look forward to 
working with you on that.
    Chairman Enzi. Thank you.
    Of course, another important area of the committee's work 
is trying to grasp the cost of Federal regulations. Private 
sector studies have estimated this cost could be close to $2 
trillion annually in gross domestic product (GDP). At OMB, the 
Office of Information and Regulatory Affairs, OIRA, is 
positioned to play an important role in reining in the burdens 
created by regulations. I posed a similar question to Director 
Mulvaney at his confirmation, but how do you see OIRA 
accomplishing the task of reducing the cost of Federal 
regulations?
    Mr. Vought. If confirmed, I would love to work on this 
issue. It is an enormous priority of this President to reduce 
the cost of regulation. You see it in some of his initial 
Executive orders which begin to ask agencies to live under 
incremental cost growth with regard to new regulations and to 
begin to reduce the burden of regulatory--reduce the burden of 
regulations as they are moving forward with new ones. So that 
is certainly something that I would look forward to, if 
confirmed, working on with this committee.
    Chairman Enzi. One of the things I am particularly 
concerned about is how many regulations are passed and it is 
estimated that they have about a $100 million impact on small 
business. I will be watching that.
    There are many times as Deputy Director when you may 
disagree with the President. For example, President Trump has 
called for increasing infrastructure funding, and in the past 
you have stated that you would be against infrastructure 
increases. Obviously, nobody agrees 100 percent of the time. 
How would you approach situations when the administration 
proposes one policy and you may feel a different policy is 
preferable? How did you handle this when you worked in the 
legislative branch?
    Mr. Vought. Sure. This President wants people in the room 
who disagree with him and provide their viewpoints, and so I 
would continue to do that, and I have done that. I think that 
as it pertains to the President's budget, it is his budget, and 
I would go forward and I would be, as I am, supportive of his 
policies and his agenda.
    Chairman Enzi. Thank you.
    Now, our current fiscal crisis is caused in large part by 
mandatory spending. Seventy percent of all the fiscal decisions 
are made before we get to make any others. This spending is not 
subject to annual appropriations, and instead the money flows 
out of the Treasury on autopilot. Mandatory spending continues 
to consume a larger and larger portion of the money that 
Treasury collects. In fact, by 2027, mandatory spending will 
account for 77 percent of all dollars collected by the U.S. 
Government.
    Now that preparation for the President's 2019 budget has 
already begun, what approach would you suggest for entitlement 
reform?
    Mr. Vought. Well, Senator, it is a very important issue. It 
is one that this President's budget took very seriously. There 
is more nominal entitlement reductions than any other 
President's budget in history. There is more reductions in 
entitlement spending as a percentage of the base than any 
President's budget since President Reagan. And so this 
President's budget takes it seriously, and in 2019, fiscal year 
2019, if the Senate confirms me, I would be arguing to continue 
that trajectory of trying to deal with one of the biggest 
drivers of our Federal spending problem and our debt in this 
country.
    We have begun the process of balancing our budget. It takes 
us 10 years to do it, but I think when you start to balance 
budgets and you start to ensure that there is some parameter 
for which decisionmaking should exist in, it is a very healthy 
budget process to regain the concept of balance, and it is 
something that we are very proud of with regard to this budget 
that we are able to achieve balance in the last year.
    Chairman Enzi. Thank you. My time has expired.
    Senator Sanders.
    Senator Sanders. Thanks very much, Mr. Chairman.
    Mr. Chairman, I would appreciate making as part of the 
record a letter from three organizations written together: the 
Arab American Institute, Bend the Arc Jewish Action, and Muslim 
Advocates. And I will just read the first----
    Chairman Enzi. Without objection.
    Senator Sanders. Thank you.
    [The letter follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Sanders. Their letter states, and I quote: ``We 
write to express our deep concerns about the nomination of 
Russell Vought to the position of Deputy Director of the White 
House Office of Management and Budget. Mr. Vought has 
denigrated American Muslims and the Muslim faith. His writings 
demonstrate a clear hostility to religious pluralism and 
freedom that disqualify him for any appointment, including that 
of Deputy Director of the OMB.'' So for the record.
    Let me start off, Mr. Vought, on budget matters. You in 
your remarks expressed the concern about the national debt, its 
impact on what you call ``wagon pullers,'' middle-income, 
working-class people, and that when you make decisions working 
on budgets, you always try to think of how it will impact those 
people, how they feel. Will they vote yes or nay? Just kind of 
paraphrasing what you said.
    Do you think that wagon pullers, that middle-class family, 
that working-class family who today is probably working longer 
hours for low wages, thinks it is a great idea to give up to a 
$52 billion tax break to the Walton family, the wealthiest 
family in this country, at the same time as your budget makes 
massive cuts that will impact that very wagon-puller family in 
terms of Head Start, in terms of Medicaid, in terms of after-
school programs for his or her kids? When you wrote that 
budget, did you have in mind that middle-class person? Do you 
really think that they think it is a great idea to give up to a 
$52 billion tax break to the wealthiest family in this country, 
a family worth something like $130 billion?
    Mr. Vought. Senator, I think it is an important concept 
that most American families deal with on a week-to-month basis, 
which is how do we balance our family budgets. And when they 
think about what they can spend, I am pretty confident, because 
I have lived in one, that they think through what they have to 
spend before they think through what they have----
    Senator Sanders. I understand that. I understand that. I 
came from a family that maybe had less money than your family. 
But I am not sure that your family or my family or that average 
middle-class family thinks it is a great idea to cut nutrition 
programs or food stamps or Medicaid. Please answer the 
question. Tell me why you think it is a great idea to give up 
to a $52 billion tax break--$52 billion--to the wealthiest 
family in America now worth $130 billion. Tell me that. Why do 
you think it is a good idea?
    Mr. Vought. Senator, I assume you are referring to the 
repeal of the estate tax.
    Senator Sanders. That is exactly what I am referring to.
    Mr. Vought. This administration--and I fully support it--
does not think that death should be a taxable event as it 
pertains to ranches and small businesses and things that a----
    Senator Sanders. All right. Just for the record, I knew 
that that would be your answer, and it is the answer given over 
the years. Will you deny that 99.8 percent of the American 
people will not get a nickel of benefit? That is what all of 
the studies show. It is for the top two-tenths of 1 percent.
    Mr. Vought. Senator, I do not think that the American 
people view America that way. I think they view America as a 
land of opportunity, and that they want to be able to work hard 
and provide a future for their children and grandchildren so 
that someday they may have to--be able to----
    Senator Sanders. OK, thank you. Mr. Vought, I do not mean 
to be rude. I just have some other questions that I would like 
to ask you. The bottom line is the administration has nothing 
to say about the absurdity of providing unbelievable tax breaks 
to people who do not need it while making major cuts for 
working families.
    Let me get to this issue that has bothered me and bothered 
many other people, and that is in the piece that I referred to 
that you wrote for a publication called Resurgent. You wrote: 
``Muslims do not simply have a deficient theology. They do not 
know God because they have rejected Jesus Christ, His Son, and 
they stand condemned.''
    Do you believe that that statement is Islamophobic?
    Mr. Vought. Absolutely not, Senator. I am a Christian, and 
I believe in a Christian set of principles based on my faith. 
That post, as I stated in the questionnaire to this committee, 
was to defend my alma mater, Wheaton College, a Christian 
school that has a statement of faith that includes the 
centrality of Jesus Christ for salvation, and----
    Senator Sanders. Again, I apologize. Forgive me. We just do 
not have a lot of time. Do you believe that people in the 
Muslim religion stand condemned? Is that your view?
    Mr. Vought. Again, Senator, I am a Christian, and I wrote 
that piece----
    Senator Sanders. Well, what does that say----
    Mr. Vought [continuing]. In accordance with the statement 
of faith of Wheaton College.
    Senator Sanders. I understand that. I do not know how many 
Muslims there are in America. I really do not know, probably a 
couple million. Are you suggesting that all of those people 
stand condemned? What about Jews? Do they stand condemned, too?
    Mr. Vought. Senator, I am a Christian. I----
    Senator Sanders. I understand you are a Christian, but this 
country is made up of people who are not just--I understand 
that Christianity is the majority religion, but there are other 
people of different religions in this country and around the 
world. In your judgment, do you think that people who are not 
Christians are going to be condemned?
    Mr. Vought. Thank you for probing on that question. As a 
Christian, I believe that all individuals are made in the image 
of God and are worthy of dignity and respect regardless of 
their religious beliefs. I believe that as a Christian that is 
how I should treat all individuals----
    Senator Sanders. And do you think your statement that you 
put into that publication, ``They do not know God because they 
rejected Jesus Christ, His Son, and they stand condemned,'' do 
you think that is respectful of other religions?
    Mr. Vought. Senator, I wrote a post based on being a 
Christian and attending a Christian school that has a statement 
of faith that speaks clearly with regard to the centrality of 
Jesus Christ in salvation.
    Senator Sanders. I would simply say, Mr. Chairman, that 
this nominee is really not someone who is what this country is 
supposed to be about. I will vote no.
    Chairman Enzi. Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman.
    To my colleagues on the Senate committee, I hope that we 
are not questioning the faith of others and how they interpret 
their faith to themselves.
    Thank you for your willingness to serve our country. Mr. 
Vought, as I travel the State of Colorado, I hear a lot of 
small business owners who are struggling with Government 
regulations, Federal regulations, and perhaps a Congress that 
would like to tell people how to think and what to do. So I 
guess I would just like to hear from you perhaps ways that we 
can reduce regulatory burdens and how we can move forward with 
letting people live the lives the way they hope to live their 
lives, to run their businesses the way they hope to, without a 
Government deciding they can do it better for themselves.
    Mr. Vought. Thank you, Senator, Gardner. There are a lot of 
initiatives that this administration has begun to reduce the 
burden of regulation in this country. There has been a number 
of Executive orders regarding ensuring that there are two 
regulations removed for every new one. There is a lot of 
emphasis being done right now to make sure that the 
retrospective reviews that have been going on since the Carter 
administration are taken seriously and used as part of that 
process.
    There is a series of Executive orders that are designed to 
ask various agencies to go back and take a separate look at a 
number of the regulations from prior administrations that 
increased the costs on society.
    And then I think there is some statutory proposals that are 
worth considering. The REINS Act is one. I know Congress is 
working on a number of these kinds of regulatory proposals to 
improve the process, and it is something, if confirmed, I would 
love to continue working on.
    Senator Gardner. Thank you, Mr. Vought. One of the 
proposals that I have been working on with Senator Lee is 
legislation that would try to reduce the number of excessive 
regulations. It talks about if you are going to increase the 
national debt limit, which this country must address its debt 
crisis, it would require Congress to enact legislation to 
reduce Federal regulatory costs by at least 15 percent of the 
amount of the debt limit increase. Maybe that is the right 
number, maybe that is the wrong number, but at least it gets 
this country focused on the fact that if you are going to 
increase the debt burden on the next generation of this 
country, then you have to do something to spur economic 
activity to get more generation of revenue to the Federal 
Government. And one of the ways we know we can do that is 
through debt regulation--excuse me, debt reduction, debt--
excuse me, regulatory elimination and eliminations of 
unnecessary regulations.
    Just talking a little bit about energy savings performance 
contracts. We have had some pretty great successes at the 
Office of Management and Budget with energy savings performance 
contracts over the past several years, bipartisan successes, 
both Republicans and Democrats who have pursued performance 
contracting tools that save taxpayer dollars by leveraging 
private sector know-how, resources to make energy upgrades to 
Federal buildings and thereby lowering energy costs. 
Performance contracts have delivered around $12 billion of 
privately financed improvements in Federal Government buildings 
over the last 20 years, and that is without incurring any up-
front capital costs or any special appropriation by Congress. 
And so bipartisan support in the House and Senate exists for 
the Federal Government to do more in this area.
    Do you agree that we should expand programs that leverage 
private dollars like this to deliver taxpayer energy savings to 
the Federal Government?
    Mr. Vought. Senator, I really enjoyed when you and I 
discussed this issue in your office and the potential that it 
has to save taxpayers money, and if confirmed, I would like to 
look into it a little bit more and see the ways that it is 
being done well and ways that we can improve them and to get 
back to you with how we could go forward.
    Senator Gardner. Thank you, and thank you to your family as 
well for your willingness to serve this country.
    Mr. Vought. Thank you.
    Chairman Enzi. Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman. I want to 
thank the witness and your family for being here.
    I do have to say, Senator Gardner, I do not think anybody 
was questioning anybody's faith here. I think the issue that 
Senator Sanders was raising was whether the nominee was 
questioning the faith of others, and he quoted the nominee 
saying, and I am quoting again: ``Muslims do not simply have a 
deficient theology. They do not know God because they have 
rejected Jesus Christ, His Son, and they stand condemned.''
    So nobody is questioning your faith. The issue is you are 
now moving from a position where you were a staff member in the 
Republican Study Committee to somebody who is supposed to 
uphold the public trust for the whole country. And I think it 
is irrefutable that these kind of comments suggest to a whole 
lot of Americans that, No. 1, their religious philosophy is 
deficient, and in condemning them because they have rejected 
Jesus Christ, His Son, you are condemning people of all faiths 
other than Christians.
    I am a Christian, but part of being a Christian, in my 
view, is recognizing that there are lots of ways that people 
can pursue their God. So no one is questioning your faith, Mr. 
Chairman. It is your comments that suggest a violation of the 
public trust in what will be a very important position.
    Let me just read another statement that you made with 
respect to infrastructure, kind of sort of a garden variety 
expenditure here: ``All of us want better roads and bridges, 
but conservatives have long championed devolving the highway 
program to the States to collect and spend gas tax revenues as 
they see fit.'' That is fine.
    Then you go on to talk about some of the Federal highway 
programs, and you state, ``It is great that Republicans are 
proposing to consolidate programs, but rationalizing 
transportation policy while growing Government at an 
unaffordable pace harms the country. In short, it may be the 
difference between Chinese communism and Soviet communism, but 
it is still communism.'' Something you said to Red State in 
January 2012.
    My question is pretty simple: We are a democracy. This 
Congress, Republicans and Democrats, have passed legislation 
for Federal highway projects and other transportation projects. 
Just explain to me how that is communism.
    Mr. Vought. Senator, do you have that post that I could 
actually read right now?
    Senator Van Hollen. I would be happy to provide it to you, 
and apparently you responded to it in the course of responding 
to some of the committee comments, I believe. In fact, I see 
someone nodding yes. But I would be happy to provide it to you.
    Mr. Vought. Happy to take a look at that. With regard to 
infrastructure spending----
    Senator Van Hollen. No, my question is really simple. How 
is it----
    Mr. Vought. I would like----
    Senator Van Hollen. No, unfortunately, I do not get to 
expand my time. My question is really simple. How is it in a 
democratically elected institution where we decided to invest 
Federal taxpayer dollars in infrastructure projects, just tell 
me how that is communism.
    Mr. Vought. Senator, with regard to infrastructure 
spending, I have always been someone who supports roads and 
bridges that work for the American people.
    Senator Van Hollen. That is not my question. My question is 
much more simple. We can have a difference of views about 
whether the Federal Government spends taxpayer dollars for 
infrastructure or whether we should send all that money to the 
States for that decision. We can disagree on that. My question 
is: How is that communism?
    Mr. Vought. Senator, I would like to see the post that you 
are referring to.
    Senator Van Hollen. I would be happy to provide it to you, 
and then I would like an answer in writing, because there is a 
history here of not just disagreement. We have big 
disagreements in this Congress. But it is making comments like 
that and the comment you made with respect to people of the 
Muslim faith or other faiths that lead people to question 
whether you can fairly sort of execute the public trust.
    [The referenced information was not provided at press 
time.]
    Senator Van Hollen. Let me ask you about the deficit and 
debt, and I am not going to go into detail. We had this 
conversation with Director Mulvaney. But anybody who claims 
that this budget that was proposed actually balances on any 
kind of credible assumptions is smoking something. I mean, it 
is pure--it is pure Enron accounting to pretend that this 
budget balances at 10 years given all the things you have put 
in there and your growth assumptions, which have been refuted 
by everybody. We would all like to see that kind of growth. But 
nobody has put forward, unless you know the Trump 
administration has put forward, a credible set of policies 
showing how we are going to get there.
    Here is my question: I agree with you that we have large 
deficits and debt. You mentioned the bill that will be passed 
to your children. You are also aware, I am assuming because you 
have done budgets a long time, that the largest category of 
spending, according to the Congressional Budget Office, is what 
they call tax expenditures. Is that right?
    Mr. Vought. It is a large portion of the Federal 
Government, correct.
    Senator Van Hollen. So it is actually larger on an annual 
basis than what we spend on Social Security. Tax expenditures 
are larger on an annual basis than what we spend on Medicare. 
And a lot of them are there because some powerful special 
interest group got to Congress and got themselves a break that 
was not enjoyed by ordinary Americans.
    So my question to you is: If you believe so strongly that 
we should be reducing the deficit and the debt, which we 
should, are you willing to eliminate any of those tax breaks 
for the purpose of reducing the deficit and debt?
    Mr. Vought. Well, thank you, Senator. One of the ways that 
we have been--this administration has been criticized for this 
budget is the notion that we are double counting when we are 
not. The tax bill itself is meant to be deficit neutral.
    Now, the policy development process is in an early stage, 
and we cannot be specific about how the guidelines that 
Secretary Mnuchin and Director Cohen put forward----
    Senator Van Hollen. I am sorry. I think you misunderstood 
my question. I am not asking whether your tax bill is deficit 
neutral. I am asking whether you would support closing a single 
tax break for the purpose of reducing the national deficit and 
debt.
    Mr. Vought. I would for the purpose of cutting taxes.
    Senator Van Hollen. You would be in favor of cutting taxes 
for--oh, for eliminating loopholes to create--to cut taxes for 
others, but not to reduce the deficit or debt, which, as you 
pointed out, is a big issue. That is not part----
    Mr. Vought. A deficit-neutral tax bill----
    Senator Van Hollen. That is not what I am asking.
    Mr. Vought [continuing]. Economic growth----
    Senator Van Hollen. Would you be prepared to reduce the 
deficit and debt by cutting a single tax break? And, you know, 
Mr. Mulvaney answered no.
    Mr. Vought. No.
    Senator Van Hollen. Clearly, your answer is no, too.
    Thank you, Mr. Chairman.
    Chairman Enzi. Senator Merkley.
    Senator Merkley. Thank you, Mr. Chair.
    Welcome to the committee. Franklin Roosevelt said that the 
test of our progress is not whether we add more to the 
abundance of those who have much, but whether we do enough for 
those who have little. And, certainly, the effort has been made 
to build a ladder of opportunity so families can go up that 
ladder and thrive.
    Do you agree with Franklin Roosevelt's analysis, his test 
of our progress?
    Mr. Vought. The test being that a notion of progress in 
this country is the ladder of opportunity provided to all 
Americans? Yes, that is----
    Senator Merkley. As opposed to giving more to those who 
have the most.
    Mr. Vought. Senator, I think that America stands for the 
principle of allowing all people, those at all scales of 
income, to be able to pursue their happiness. And I would not 
phrase the American dream in categories of rich versus poor. I 
would frame it in the category of a broad ladder that allows 
rules of the game that allow all Americans to move up that 
ladder with hard work and a good idea.
    Senator Merkley. So the budget that has been proposed 
eliminates 4,000 housing vouchers for low-income American 
families. We are actually in a state of emergency in affordable 
housing in Portland and some of the other parts of the State. 
Does that meet the test of strengthening the ladder of 
opportunity? Just yes or no.
    Mr. Vought. Senator, with regard to affordable housing, 
this budget was very careful to ensure that no one currently 
receiving----
    Senator Merkley. I am asking a specific question. You can 
address some other group on your desire, but I am asking if 
eliminating these housing vouchers for Oregon and similar 
quantities around the country strengthens or weakens 
opportunity for struggling families.
    Mr. Vought. One of the ways that this budget was put 
together, Senator, was to ensure that----
    Senator Merkley. I am not interested in the way it was put 
together. I am asking whether this program being eliminated 
strengthens or weakens opportunity for struggling families.
    Mr. Vought. I appreciate it, Senator. I am just trying to 
answer your question.
    Senator Merkley. You are not answering it.
    Mr. Vought. In terms of decreasing dependency on Federal 
programs such as this, this budget takes steps to ensure that 
the housing programs that we have really do meet the needs of 
those who need them, but as it pertains to ensuring that 
families that can pay a little bit more and get themselves off 
of affordable housing----
    Senator Merkley. OK. Can you give me the short version to 
my final--to my other questions, because you have taken 2 \1/2\ 
minutes not to answer my first one. Do you believe that 
eliminating heating assistance in the LIHEAP program 
strengthens opportunity for struggling families?
    Mr. Vought. Senator, I think it is important not to waste 
taxpayer dollars----
    Senator Merkley. OK, just--so you are saying yes, you think 
it strengthens, right? Because that is--you are just doing a 
long way of getting to yes, you support eliminating this 
program as something positive for struggling families.
    Mr. Vought. Well, it is a nuanced answer because the 
program does not work well and has a high rate of----
    Senator Merkley. OK. Let us continue. Does eliminating 
nutrition assistance for 13,400 pregnant women, new moms, 
babies, and toddlers in Oregon by cutting the Women, Infants, 
and Children (WIC) program and doing similar across the country 
strengthen or weaken opportunity for struggling families?
    Mr. Vought. Senator, I do not think that is a fair 
characterization of the budget. There is no intent to cut WIC 
spending in this budget. In terms of timing when we set the 
budget, it was--we had not had a----
    Senator Merkley. But it does lower--it does lower it.
    Mr. Vought. We had not finalized----
    Senator Merkley. Do you intend to modify it then if you are 
using the excuse of time? Do you plan to change it?
    Mr. Vought. The omnibus bill had not passed.
    Senator Merkley. Do you support changing the budget to 
accommodate the fact that you did not take that into account?
    Mr. Vought. We support working with Congress to ensure that 
there is no WIC cutting, WIC funding loss.
    Senator Merkley. So you do intend to change the budget?
    Mr. Vought. We look forward----
    Senator Merkley. Can you give us a----
    Mr. Vought [continuing]. To working with Congress to ensure 
that WIC has all of the necessary spending that it needs.
    Senator Merkley. Does giving away, in the general outlines 
of the President's tax proposal, about $6 trillion mostly to 
the richest Americans strengthen opportunity for struggling 
families?
    Mr. Vought. Senator, I think the tax bill will lead to 
economic growth that will get people working again, and we have 
about 6 million people in this country that had previously been 
working and, unfortunately, cannot find jobs. And we want to 
change that.
    Senator Merkley. Does eliminating health care immediately 
for 14 million individuals and an estimated 23 million families 
strengthen opportunity for working families?
    Mr. Vought. Senator, we do not think that is a fair 
characterization of the American Health Care Act (AHCA).
    Senator Merkley. OK. What is your estimate of the number 
that will be eliminated?
    Mr. Vought. We have not provided an estimate yet.
    Senator Merkley. So why do you support it if you do not 
have an estimate?
    Mr. Vought. Senator, because we think that it goes to the 
heart of the problems with Obamacare as we know it right now, 
which is doubling the premiums across the country. Counties--I 
am sure you have many in your own state that do not have the 
ability to have options for health insurance plans. These are 
all things that need immediate answers to, and we are going to 
have to continue to studying the best analysis we can going 
forward.
    Senator Merkley. You are aware that the actions of the 
administration are undermining the success of the exchanges, 
both by eliminating reinsurance, which prevents companies from 
entering new markets, and that by withholding cost-sharing 
payments or the certainty of cost sharing, companies are 
choosing to leave the market, and that was the issue cited by 
Anthem today, and that by failing to spend the money for 
advertising in the last period for sign-ups, the administration 
undercut the successful, if you will, final sign-up period, 
that these actions are deliberately designed to destroy the 
exchanges, which was a plan that came from conservative think 
tanks? Are you aware of all that?
    Mr. Vought. I do not think that is a fair 
characterization----
    Senator Merkley. Oh, I think it is----
    Mr. Vought [continuing]. Of the administration's actions.
    Senator Merkley [continuing]. Extremely fair, and my time 
is up. Thank you.
    Chairman Enzi. Senator Harris.
    Senator Harris. Thank you.
    Last week, the Department of Justice's Office of Legal 
Counsel (OLC) released an opinion that executive branch 
agencies have no legal obligation to respond to congressional 
requests for information from individual members, including 
Ranking and minority lawmakers. Are you familiar with that?
    Mr. Vought. I am familiar with it. I have not read it, 
though.
    Senator Harris. Have you in any way been asked or directed 
by the White House or any agency official to limit your 
responses in any way to requests from Democratic lawmakers?
    Mr. Vought. The administration has taken the view based on 
OLC's opinion that, with regard to certain types of oversight 
requests, they should go through the committee chairmen, and 
with regard to Director Mulvaney, we are taking that position 
as well. But it is something I look forward to talking with him 
about, if confirmed.
    Senator Harris. Are you aware of any chairmen of any 
committees that have directed that you not respond to the 
requests from Democratic lawmakers?
    Mr. Vought. From committee chairmen? No, I am not aware of 
that.
    Senator Harris. Are you aware of any direction from anyone 
that you not respond or that agencies do not respond to 
requests from Democratic lawmakers?
    Mr. Vought. Again, other than what I have said in terms of 
trying to make sure that we abide by the memorandum of OLC to 
have certain types of formal oversight requests go through the 
committee chairmen, no, I am not aware of that.
    Senator Harris. And if you were to become aware of it, what 
do you believe your responsibility would be?
    Mr. Vought. Well, like I said previously to the committee 
this morning was that I intend to work in an open and 
transparent way with all Members of Congress and to look for 
ways that we can oversee the Federal Government to find ways to 
do things better, and when I do that, I will be looking to 
advice from our legal team. But I want to be as transparent and 
open in working with this committee as possible.
    Senator Harris. Do you believe you have a legal obligation 
to respond to Members of the U.S. Congress when they ask about 
the work you do in your official capacity, if confirmed?
    Mr. Vought. I have already said to this committee that I 
would come and testify for any reason with regard to the 
decisions that are made publicly at OMB. In terms of----
    Senator Harris. But if questions have been submitted to 
you, questions for the record?
    Mr. Vought. I think that the OLC memo--and I have not read 
it--pertains to whether the administration is obligated or not. 
That does not get to the discretion that is involved with 
responding to oversight requests and trying to work with 
Congress in an open and transparent process.
    Senator Harris. So my question is: Do you believe you have 
a legal obligation to respond? Is your answer yes?
    Mr. Vought. Senator, I would have to go and understand 
further the OLC opinion to know what obligations I would be 
subject to. That said, there is a reason why I am consulting 
the legal team so that I can make sure that I comply with all 
obligations under the law and this committee.
    Senator Harris. Do you believe you have an ethical and 
professional responsibility to respond?
    Mr. Vought. Again, I want to work on an open and 
transparent way with this committee, and I think it is vital 
for the effective working of this--of oversight in the 
Congress.
    Senator Harris. I understand that you were involved in the 
production of the President's skinny budget. Is that correct?
    Mr. Vought. One of my jobs as a member of the beachhead 
team was help compile options for the President and the 
Director to decide upon, yes.
    Senator Harris. So the budget you helped draft cuts the 
Department of Labor by $2.5 billion and the workforce training 
budget by $1.3 billion at a time when there has been a number 
of major disruptions in our labor force. We have had that 
discussion in this committee. And so my question to you is that 
the budget that you have helped draft includes a 21 percent cut 
to the Department of Labor with a 40 percent cut to workforce 
training. How do you propose that the American worker receive 
the type of assistance she and he need to be able to transition 
into the economy of the 21st century when you have drastically 
cut the budget that was intended to help them make that 
transition so they can take on the jobs that need to be 
performed?
    Mr. Vought. Senator, one of the assumptions in this budget 
is that the best way to get people working is to get the 
economy growing, and that the best job training program is a 
job in the private sector. And so one of the things that this 
budget is trying to do is to say we need to get the country 
growing again at 3 percent and to bring 6 million people back 
into the labor force with the jobs.
    Senator Harris. Yes, but would you agree that--that is fine 
to say that we want to create jobs, but if the workforce does 
not have the skills to perform those jobs, then those jobs will 
be left empty and Americans will be left jobless. Do you 
understand the analysis there?
    Mr. Vought. I do, and the second part of my comments that I 
was trying to get to was that, to the extent that we think that 
there are job training programs that work well, this 
administration wants to fund them. So, for instance, we 
increase spending on apprenticeships because we had evidence 
that that particular program worked well. We have less evidence 
as it pertains to many of the other kind of core job training 
programs and their effectiveness. Oftentimes people do not 
actually improve their employment prospects after going through 
those job training programs, and we find that problematic. And 
in an era of scarce resources and deficits, we can no longer 
spend money on programs that do not work.
    Senator Harris. My time has expired. Thank you.
    Chairman Enzi. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman. Thank you, Mr. 
Vought.
    When the House and the Senate reached a budget deal at the 
end of April, the President tweeted out a couple of days later 
some dissatisfaction with it and said it may be time for a 
``good shutdown in September.'' That is the quote, ``good 
shutdown.''
    Do you believe a shutdown of the United States is or can be 
good--of the Government of the United States is or can be good 
under any circumstances?
    Mr. Vought. Senator, I think it is important that we get 
out of the business of Government shutdowns, that we consider 
budget process reforms that put us on a situation where we have 
automatic continuing resolutions. Senator Portman has proposed 
legislation along these lines--I am not sure if you have taken 
a look at them--to be able to move the brinkmanship from the 
end-of-the-year appropriations process. The budget process is 
broken.
    Senator Kaine. So you will agree with me that there is no 
such thing as a good shutdown of the Government of the United 
States?
    Mr. Vought. Senator, I want to be very clear in terms of 
the appropriations process is broken right now, and to the----
    Senator Kaine. I am asking you a very simple question. You 
are up for a position in the Office of Management and Budget of 
the Government of the United States, and I want to know your 
opinion as to whether there could ever be a good shutdown of 
the Government of the United States, in your opinion.
    Mr. Vought. My opinion tracks with the Director's opinion 
that a Government shutdown that came from an ability to get out 
of the level of brinkmanship that we currently find ourselves 
in in the appropriations process would not necessarily be a bad 
one. That said, Government shutdowns are----
    Senator Kaine. So you could foresee some circumstances 
where you think a Government shutdown would be good or would 
not necessarily be bad?
    Mr. Vought. Senator, right now you have an appropriations 
process in which----
    Senator Kaine. I am just--I am real simple. I know the 
process, do not have to explain it to me.
    Mr. Vought. No, I understand that. I am not----
    Senator Kaine. President Lincoln, the founder of your 
party, said he wanted to know whether Government by, of, and 
for the people shall continue to exist on the Earth. That was 
what his Gettysburg Address said. I do not think the Government 
should be shut down, of this Nation, for a week, for a month, 
for a year, for an hour, for a second. And I want to know 
whether you see any circumstance under which a Government 
shutdown would be good, as President Trump called for.
    Mr. Vought. I am not----
    Senator Kaine. Because I will tell you, if you leave the 
door open that a shutdown would be good, I am voting against 
you. I am going to vote against anybody for a budget and 
management position who cannot repudiate the notion that 
shutting the Government down is a very, very bad thing. If you 
think it could be a good thing, that is your opinion. You are 
not going to get my vote.
    Mr. Vought. Senator, the appropriations process is broke, 
and we have a House and a Senate----
    Senator Kaine. Let me ask it this way: I think any shutdown 
of the Government of the United States is a horrible thing. Do 
you agree with me?
    Mr. Vought. Senator, it depends on the level of----
    Senator Kaine. All right. You do not agree with me.
    Mr. Vought [continuing]. And who shuts the Government down. 
It is not the President of the United States.
    Senator Kaine. But it depends. So shutting the Government 
of the greatest Nation on Earth down could be OK. It could be 
fine.
    Mr. Vought. If Congress does not continue to send bills 
that meet the President's expectations for what he would sign 
and----
    Senator Kaine. It is better for the Government of the 
United States to be shut down.
    Mr. Vought. Senator, the appropriations process----
    Senator Kaine. I mean, that is the implication.
    Mr. Vought [continuing]. Is broken.
    Senator Kaine. It may be broken, but you should shut the 
Government of this country down--we are in year 230 of the 
Constitution written by Madison and others in Philadelphia in 
September of 1787. You want to be at the Office of Management 
and Budget, but you will not tell me that shutdown is a bad 
thing. That is an extremely telling admission. That is an 
extremely telling admission.
    The last thing I am going to ask you is this: Your 
testimony talks about your parents. I think this is 
interesting, your written testimony: ``I often have wondered 
what they would have been free to build and give without such a 
high burden.'' The previous sentence is: ``My parents worked 
really long hours to put me through school. But they also 
worked long hours to pay for the Government in their lives, and 
I often have wondered what they would have been free to build 
and give without such a high burden.'' Is that how you see the 
Government of the United States?
    Mr. Vought. I do see the Government of the United States as 
a good thing that protects our rights as citizens to life----
    Senator Kaine. I do not see that in your testimony.
    Mr. Vought [continuing]. And the pursuit of happiness. That 
said, we have an excessively large Federal Government. Right 
now, we spend $4.6 trillion----
    Senator Kaine. I mean, the thing that is interesting is I 
do not see anything in here about the Government that is good. 
Wasn't your mom a school teacher?
    Mr. Vought. She was, Senator.
    Senator Kaine. And was she a public school teacher?
    Mr. Vought. For a portion of her time, yes.
    Senator Kaine. So that was government, right? Some local 
government. Some people, including people who did not kids, 
were paying taxes to hire your mom to teach kids, and you went 
through the public schools, right?
    Mr. Vought. I did not.
    Senator Kaine. So at no point along the way were you a 
public school student?
    Mr. Vought. I was not, Senator.
    Senator Kaine. But your mom was being paid. So when you 
talk about the high burden that your parents experienced to pay 
taxes, some of those taxes that were being paid were to pay 
your mom to do a very honorable job, teaching kids in public 
schools.
    Mr. Vought. It was certainly honorable and it is not----
    Senator Kaine. I give credit to her and all teachers.
    Mr. Vought. I am not here to say that there is not a role 
for Government. Please do not misread what I said in my 
testimony. I am saying that to the extent that our Government 
is excessively large and we spend $4.6 trillion at the Federal, 
State, and local level that happens to track with the amount 
that Americans pay for food, clothing, and shelter, I think 
that is imbalanced.
    Senator Kaine. It is a matter of emphasis, and I would 
agree there are problems, too. We might have the opportunity to 
work on some of them. But when the lead argument about your 
folks is worrying about the high burden that they had to pay 
because of the Government of this country and your mom was a 
public school teacher and you could not find anything else good 
to say about Government in here, I think that is very telling.
    Thank you, Mr. Chair.
    Chairman Enzi. Senator Stabenow.
    Senator Stabenow. Thank you very much, Mr. Chairman.
    Welcome. You are here at a very, very difficult time, as 
you know, a lot of very serious things in front of us, and let 
me first say that also in your testimony you talk on a number 
of occasions about the current national debt, $20 trillion 
national debt. The President has proposed a tax cut geared to 
the wealthiest Americans, sort of hoping it will trickle down 
to everybody else. But that is at least $5.5 trillion in costs 
not paid for, so I assume that it would add at least $5.5 
trillion to the national debt. Do you think that is a good 
idea?
    Mr. Vought. Senator, I do not think that is a fair 
characterization of what the President has put forward in his 
guidelines for tax reform. Some of those numbers that you 
mentioned are various outside groups that have scored various 
aspects of the proposal that is still in the policy development 
process.
    Senator Stabenow. Well, how much do you think adding to the 
debt is a good idea? I mean, $3 trillion, $4 trillion? Five? I 
am not sure what his----
    Mr. Vought. The President's budget assumes a deficit-
neutral tax reform bill, that any reductions in revenues from 
rate cuts or repealing the estate tax would come from 
broadening the base, eliminating special interest tax 
provisions, and getting rid of those types of provisions in the 
code.
    Senator Stabenow. We have not seen this happen before in 
our history, these kinds of proposals. But let me move on.
    Let me talk about another part of the benefit of being an 
American and driving on the roads, water systems, 
infrastructure, and the American Society of Civil Engineers has 
given America's infrastructure a D-plus rating. And so when we 
look at the President's budget, I have a lot of concerns. I 
guess I would start by asking if you value and if the 
administration values rural communities and the infrastructure 
in rural communities.
    Mr. Vought. The administration certainly values rural 
communities.
    Senator Stabenow. Well, let me ask why, then, the entire 
Rural Development Water and Sewer Program is eliminated in the 
President's budget, the support for small airports is 
eliminated, so all the small towns in northern Michigan that 
get two flights a day, you know, in and out of the major cities 
that allow people to be able to travel and do business and be 
involved in visiting our beautiful rural Michigan is 
eliminated. I mean, that is infrastructure. And we also have a 
situation where what is being proposed for the way to fund 
infrastructure, as I understand it, in the President's 
infrastructure proposal is basically to turn most of the 
funding for that over to Wall Street investors or maybe a 
foreign country wants to buy a road, maybe Saudi Arabia wants 
to buy a road. You know, the President talks about buy America, 
hire America. How about owning America?
    But all of this adds up to a situation where the little 
town where I grew up in northern Michigan is going to lose if 
we are eliminating water and sewer, if we are eliminating 
support for small airports. I do not see any major Wall Street 
investors being willing to invest in the water and sewer system 
in Clare, where I grew up, or the roads going up to the Upper 
Peninsula. So what do you tell people in rural Michigan about 
this budget and what it says about support for the quality of 
life in their communities?
    Mr. Vought. Thank you, Senator. A couple things.
    First, it stands for the proposition that the best thing 
that can happen for people in rural America is having an 
economy that is growing again. But let me get to the specifics 
that you brought up.
    With regard to the U.S. Department of Agriculture (USDA) 
Rural Infrastructure Program, that is a program that predates 
the State revolving funds at the Environmental Protection 
Agency (EPA). And even though EPA saw serious reductions in 
this budget, one of the things that we protected was the State 
revolving funds because we think those are so crucial for the 
very types of water and sewage infrastructure that you are 
talking about.
    With regard to essential air service, that is a program 
that consistently gets on every Government Accountability 
Office (GAO) report about programs that do not work, that have 
high subsidy costs per flight, flights are empty because no one 
is on them to fill them. So we eliminate the discretionary 
portion of that program, but we retain a portion for mandatory 
for rural areas, specifically to address communities like your 
own.
    Senator Stabenow. Well, let me say, first of all, I would 
love to have you take a flight with me when I am flying up to 
Marquette or Alpena or Traverse City on full flights, and it is 
very important. And when you are flying all the way up to the 
Upper Peninsula of Michigan, those flights are absolutely 
critical to connect businesses, hospitals, educators, citizens 
to the lower part of our State as well as across the country.
    But let me just stress one more time: What you are doing at 
EPA is not going to take the place of the Rural Development 
Water and Sewer Program which serves about 20 million people in 
our country. I can take you to every part of Michigan, and you 
will see efforts that have gone on that have created quality of 
life, clean water, roads, small businesses as a result of 
programs that are being eliminated in this budget.
    Thank you, Mr. Chairman.
    Chairman Enzi. Thank you.
    Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman.
    Mr. Vought, how are you?
    Mr. Vought. Good, Senator.
    Senator Kennedy. How big is the national debt?
    Mr. Vought. $20 trillion.
    Senator Kennedy. So that would be $2,000 billion. Is that 
right? How long would it take me to count to a billion, do you 
think?
    Mr. Vought. Quite some time.
    Senator Kennedy. I did the math before I came. If I counted 
to a billion one numeral a second, it would take me until 2047. 
Doesn't that just take your breath away?
    Mr. Vought. It does, Senator.
    Senator Kennedy. Now, how did we run up $20 trillion worth 
of debt?
    Mr. Vought. Well, Senator, I think we got to that place by 
no longer considering about the constraints or what we have to 
spend when we had the same conversation about what we need to 
spend on, when we lost the connection between the two, like 
every other family in this country, which is they say we are 
going to figure out what we are going to spend and it is going 
to be based on what we have to take in, what our salaries are, 
what other income resources we have, I think that is when we 
went off the rails from a fiscal standpoint.
    Senator Kennedy. I think we got--and I agree with your 
analysis. I think of it in terms that are a bit simpler. Every 
year we have been spending more than we take in, and we borrow 
money to fill the hole. Right?
    Mr. Vought. Correct.
    Senator Kennedy. And those deficits, those annual deficits, 
accumulate and we end up with $20 trillion worth of national 
debt that my son and my grandson, if I have one, and his 
children are going to have to pay off.
    How would it work in your family if you just took your 
credit card and every month you and your better half just 
charged whatever you wanted to and never worried about paying 
it back? How long could you survive?
    Mr. Vought. Not very long.
    Senator Kennedy. Have you ever seen a nation spend itself 
into prosperity?
    Mr. Vought. No, sir. And, in fact, I think the historical 
record is that nations that spend themselves into debt 
situations go by the wayside.
    Senator Kennedy. I have not been here very long, but it 
seems to me there are sort of two groupings of people around 
Congress.
    There is one group that believes that Government can spend 
your money better than you can and Government knows better than 
you do, and if you just give enough of your money to Government 
and listen to them, do what they say, they know what is best 
for you and your family.
    And there is another group that believes that people can 
spend their money better than the Federal Government can.
    Which group do you belong in?
    Mr. Vought. I believe families and local communities can 
spend their money far better than politicians can in DC.
    Senator Kennedy. Because that is what I see developing in 
Washington, and it is not a Republican versus Democrat thing. I 
think there are some Republicans that may disagree with what I 
say, and there are some Democrats, my friends on the other 
side, that may agree. But there are basically two groups of 
people now. There are people who believe in more freedom and 
more free stuff, and we cannot afford all the free stuff we 
have. And it upsets me when people say, well, the American 
people, they just do not want to help folks who are not as well 
off as they are when we are spending $1 trillion a year in 
state and local social programs.
    In this country, if you are hungry, we feed you. If you are 
homeless, we house you. If you are too poor to be sick, we will 
pay for your doctor. But we have to be mindful of the budget. 
And I want you to take a message back to the Director for me.
    First, I want to congratulate you on your service in 
Government. You have an extraordinary resume. And I want you to 
take a message back to the Director after you are confirmed. I 
want you to tell him--thank him. Thank him for trying to get 
the spending under control. Thank him for admitting what is 
obvious to any reasonable American, and that is that there are 
billions of dollars worth of waste in this budget, and help him 
get rid of it.
    Mr. Vought. Thank you for that, for your kind words, and I 
will certainly put that message back to the Director.
    Senator Kennedy. And I am going to get gaveled, but be 
aware, there are some people around here that are just going to 
hate you because you were nominated by a President they do not 
like or because you are standing in their way to spend every 
single dime that the taxpayer has and then they want to go 
hunting for more. So do not expect to be popular. But I know 
you know that.
    Mr. Vought. I look forward to treating all people with 
dignity and respect, Senator.
    Senator Kennedy. I know you will. Thank you.
    Thank you, Mr. Chairman.
    Chairman Enzi. Thank you. I want to thank Mr. Vought for 
appearing before the committee today. Your full statement will 
be included in the record.
    I also want to thank you for bringing your family and want 
to congratulate them on their extreme patience. I know this is 
the second hearing today, not the first, and afternoons 
sometimes get a little long. But I wish we had this kind of 
entertainment at all of our hearings.
    [Laughter.]
    Chairman Enzi. I look forward to watching as they grow up.
    As information to all Senators, questions for the record 
are due by 12 p.m. tomorrow, with signed hard copies to be 
delivered to the committee clerk in Dirksen 624. That is in 
response to some who think that they might like to have 
additional questions or have more specificity.
    Under the rules, Mr. Vought, you will have 7 days from 
receipt of our questions to respond with the answers, which 
fits with the oath that you took at the beginning, and I think 
you actually answered some of the questions that you got.
    So with no further business, this hearing is adjourned.
    [Whereupon, at 3:43 p.m., the committee was adjourned. 
Additional materials submitted for the record follow.]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

Post-Hearing Questions from Ranking Member Bernard Sanders with Answers 
                          by Russell T. Vought

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

 Post-Hearing Questions from Budget Committee Members with Answers by 
                           Russell T. Vought
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


  EXECUTIVE BUSINESS MEETING TO CONSIDER THE NOMINATION OF RUSSELL T. 
                   VOUGHT, OF VIRGINIA, TO BE DEPUTY
            DIRECTOR OF THE OFFICE OF MANAGEMENT AND BUDGET

                              ----------                              


                        WEDNESDAY, JUNE 14, 2017

                                       U.S. Senate,
                                   Committee on the Budget,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 4:49 p.m., in 
room S-211, The Capitol, Hon. Michael B. Enzi, chairman of the 
committee, presiding.
    Present: Senators Enzi, Grassley, Crapo, Graham, Toomey, 
Johnson, Corker, Perdue, Gardner, Kennedy, Boozman, Strange, 
Sanders, Merkley, and Harris.
    Staff present: Eric Ueland, Republican staff director; and 
Warren Gunnels, minority staff director.
    Chairman Enzi. I will call this committee meeting to order.
    We will vote on the nomination of Russell Vought to be the 
next Deputy Director of the Office of Management and Budget. We 
will withhold statements at this time.
    I do intend to support the nomination and I hope you will, 
as well.
    Unless Senator Sanders has something to add, we will move 
directly to vote on the nomination.
    The clerk will call the roll.
    The Clerk. Mr. Grassley.
    Senator Grassley. Aye.
    The Clerk. Mr. Crapo.
    Senator Crapo. Aye.
    The Clerk. Mr. Graham.
    Senator Graham. Aye.
    The Clerk. Mr. Toomey.
    Senator Toomey. Aye.
    The Clerk. Mr. Johnson.
    Senator Johnson. Aye.
    The Clerk. Mr. Corker.
    Senator Corker. Aye.
    The Clerk. Mr. Perdue.
    Senator Perdue. Aye.
    The Clerk. Mr. Gardner.
    Senator Gardner. Aye.
    The Clerk. Mr. Kennedy.
    Senator Kennedy. Aye.
    The Clerk. Mr. Boozman.
    Senator Boozman. Aye.
    The Clerk. Mr. Strange.
    Senator Strange. Aye.
    The Clerk. Mr. Chairman.
    Chairman Enzi. Aye.
    The Clerk. Mr. Sanders.
    Senator Sanders. No.
    The Clerk. Mrs. Murray.
    Senator Sanders. No by proxy.
    The Clerk. Mr. Wyden.
    Senator Sanders. No by proxy.
    The Clerk. Ms. Stabenow.
    Senator Sanders. No by proxy.
    The Clerk. Mr. Whitehouse.
    Senator Sanders. No by proxy.
    The Clerk. Mr. Warner.
    Senator Sanders. No by proxy.
    The Clerk. Mr. Merkley.
    Senator Merkley. No.
    The Clerk. Mr. Kaine.
    Senator Sanders. No by proxy.
    The Clerk. Mr. King.
    Senator Sanders. No by proxy.
    The Clerk. Mr. Van Hollen.
    Senator Sanders. No by proxy.
    The Clerk. Ms. Harris.
    Senator Harris. No.
    Chairman Enzi. The clerk will report the vote.
    The Clerk. Mr. Chairman, there are 12 yeas and 11 nays.
    Chairman Enzi. How many of the nays are proxies?
    The Clerk. Eight proxies.
    Chairman Enzi. Thank you.
    Statements for the record must be submitted by 12 o'clock 
p.m. tomorrow with a signed hard copy delivered to the 
committee clerk at Dirksen 624.
    Thank you. The meeting is adjourned.
    [Whereupon, at 4:55 p.m., the committee was adjourned. The 
following prepared statement by Senator Charles E. Grassley was 
submitted for the record subsequent to the executive business 
meeting.]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      

                           [all]         
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
